TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Report on Audit of Compliance With Cost
                  Accounting Standard 414 – Accounting for
                  Cost of Money As an Element of the Cost of
                              Facilities Capital



                                         September 2005

                             Reference Number: 2005-1C-120




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 15, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                           Daniel R. Devlin
                                 Assistant Inspector General for Audit (Headquarters Operations
                                 and Exempt Organizations Programs)

 SUBJECT:                        Report on Audit of Compliance With Cost Accounting Standard 414 –
                                 Accounting for Cost of Money As an Element of the Cost of Facilities
                                 Capital (Audit # 20051C0230)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s compliance with
 requirements of Cost Accounting Standard (CAS) 414, Accounting for Cost of Money As an
 Element of the Cost of Facilities Capital. The purpose of the examination was to determine if the
 contractor complied with the requirements of CAS 414 and any applicable Federal Acquisition
 Regulation Part 311 during the period January 1, 2004, through December 31, 2004.
 The DCAA considers the contractor’s accounting system to be generally acceptable for
 accumulating, reporting, and billing costs on Federal Government contracts. According to the
 DCAA, the contractor complied, in all material respects, with the requirements of CAS 414
 during the period January 1, 2004, through December 31, 2004. The DCAA is currently
 performing an updated review of the accounting system and related internal controls.
 The information in this report should not be used for purposes other than those intended without
 prior consultation with the Treasury Inspector General for Tax Administration regarding their
 applicability.


 1
     48 C.F.R. pt 1-53 (2002).
                   Report on Audit of Compliance With Cost Accounting
             Standard 414 - Accounting for Cost of Money As an Element of the
                                Cost of Facilities Capital


If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                 2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
